A1

19-3987-cr
Lowell v. Vermont Dep't for Children and Families

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
AMENDED SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007 IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
"SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 15th day of December, two thousand twenty.
PRESENT:
BARRINGTON D. PARKER,
DENNY CHIN,
Circuit Judges,
JANE A. RESTANI,
Judge. *
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
MIRIAM LOWELL, SETH HEALEY,
Plaintiﬀs-Appellants,
v.
19-3987-cv
VERMONT DEPARTMENT OF CHILDREN AND
FAMILIES, "DCF," KENNETH SCHATZ, COMMISSIONER,
DCF, KAREN SHEA, DEPUTY COMMISSIONER FOR THE
FAMILY SERVICES DIVISION ("FSD"), DCF, CHRISTINE
JOHNSON, DEPUTY COMMISSIONER FOR FDS, DCF,
Judge Jane A. Restani, of the United States Court of International Trade, sitting by
designation.
*

A2

EMILY CARRIER, DISTRICT DIRECTOR, DCF,
CATHERINE CLARK, DIRECTOR, COMMISSIONER'S
REGISTRY REVIEW UNIT, DCF, KATHLEEN SMITH,
FAMILY SERVICES SUPERVISOR,CHRISTINE GADWAH,
FAMILY SERVICES WORKER, DCF, KATHLEEN
GREENMUN, SUBSTANTIATION HEARING OFFICER,
DCF,
Defendants-Appellees,
JOHN AND JANE DOES 1-10,
Defendants.
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
FOR PLAINTIFFS-APPELLANTS:

COLIN R. HAGAN, Shlansky Law Group,
LLP, Chelsea, Massachusetts.

FOR DEFENDANTS-APPELLEES:

BENJAMIN D. BATTLES, Solicitor General, for
Thomas J. Donovan, Jr., Attorney General,
Montpelier, Vermont.

Appeal from the United States District Court for the District of Vermont
(Crawford, Ch. J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the decision of the district court is AFFIRMED.
Plaintiffs-appellants Miriam Lowell and Seth Healey ("plaintiffs") appeal
the decision of the district court issued November 18, 2019, denying their motion for a
temporary restraining order and preliminary injunction. Plaintiffs brought the action
below seeking declaratory and injunctive relief, and damages against defendantappellant Vermont Department for Children and Families ("DCF") and certain DCF

A3

officials. DCF had brought a proceeding against plaintiffs seeking to investigate and
determine whether to substantiate a report of child abuse or neglect based on
purportedly false allegations. Plaintiffs sought injunctive relief to stop DCF from
conducting an administrative hearing and listing their names on Vermont's child
protection registry. In its ruling, the district court concluded that the Younger
abstention doctrine barred plaintiffs' claims for injunctive relief. See Younger v. Harris,
401 U.S. 37 (1971).

The court also denied defendants' motion to dismiss the action,

noting that Younger abstention did not apply to plaintiffs' claims for damages. This
appeal followed. We assume the parties' familiarity with the underlying facts,
procedural history of the case, and the issues on appeal.
We review de novo whether the requirements for abstention have been
met. See Disability Rights New York v. New York, 916 F.3d 129, 133 (2d Cir. 2019); Diamond
"D" Constr. Corp. v. McGowan, 282 F.3d 191, 197-98 (2d Cir. 2002). Although the
findings of facts are reviewed for clear error, whether those facts support a finding that
the case meets an exception to the Younger abstention doctrine is a mixed question of
law and fact that is reviewed de novo. See id. at 198.
As a general matter, Younger abstention requires federal courts to abstain
from exercising jurisdiction over state-level proceedings. Three types of proceedings
trigger Younger abstention: 1) "ongoing state criminal prosecutions," 2) state "civil
enforcement proceedings," and 3) proceedings involving state courts "perform[ing] their

A4

judicial functions." Sprint Commc'ns, Inc. v. Jacobs, 571 U.S. U.S. 69, 70 (2013).
Moreover, after applying the categorical Sprint approach, this court will consider three
additional, non-dispositive factors to determine whether abstention is appropriate: 1)
whether there is a "pending state proceeding," 2) whether that proceeding "implicates
an important state interest," and 3) whether "the state proceeding affords an adequate
opportunity for judicial review of . . . federal constitutional claims." Falco v. Justices of
Matrimonial Parts of Supreme Ct. of Suffolk Cnty., 805 F. 3d 425, 427 (2d Cir. 2015) (citing
Middlesex Cnty. Ethics Comm. v. Garden State Bar Ass'n, 457 U.S. 423 (1982). Altogether,
even if Younger's prerequisites are satisfied, a federal court may exercise jurisdiction if
the plaintiff can make a showing of "bad faith, harassment or any other unusual
circumstance that would call for equitable relief." Id. (quoting Younger, 401 U.S. at 54).
The district court correctly concluded that Vermont's substantiation
process is akin to a criminal prosecution, falling within Younger's second category. In
determining whether a civil enforcement action is akin to a criminal proceeding, we
consider whether the action involved a state sanctioning a party "for some wrongful
act," was "initiated [by the State] to sanction the federal plaintiff," and involved
"[i]nvestigations [that] culminat[e] in the filing of a formal complaint or charges."
Sprint, 571 U.S. at 79-80. The substantiation process at issue here possessed these
features. Therefore, DCF's proceeding constituted an ongoing state proceeding akin to
a criminal prosecution.

A5

The substantiation proceedings also satisfy the additional Middlesex
factors. Vermont has a vital interest in protecting the well-being of its children. See
Moore, 442 U.S. at 435 ("Family relations are a traditional area of state concern.").
Moreover, the state proceedings provide a sufficient forum for review of federal
constitutional claims. After an accusation of wrongdoing, DCF can initiate an
investigation. Vt. Stat. Ann. Tit. 33 § 4915, 4915a, 4915b. If DCF finds that the claims are
substantiated, it provides notice of that fact to the accused. It also informs the accused
that DCF can place the individual on the child protection registry. Vt. Stat. Ann. tit. 33 §
4916a(a). The accused is notified of the right to request administrative review of the
decision, id., which is conducted by a neutral arbiter who is not an employee of DCF, id.
§ 4916a(f). The burden of proof rests on DCF and the accused has the right to present
documentary evidence and other evidence. Id. §§ 4916a(d), a(e). A person's name is
not placed on the registry until after the accused is granted an administrative review,
and the substantiation is upheld. Id. § 4916a(h). The accused can appeal that decision
to the Human Services Board. Id. §§ 4916a(i), b. That decision, in turn may be appealed
to the Vermont Supreme Court. Id. tit. 3 § 3091(f). Accordingly, plaintiffs have an
opportunity to raise their constitutional claims at the hearing before the Human
Services Board and before the Vermont Supreme Court.
Plaintiffs argue that this review of their constitutional claims arrives too
late, beyond the point that their names are listed on the child protection registry,

A6

potentially affecting their employment in an irreparable way. Plaintiffs' names,
however, have not been placed on the child-protection registry, as the state has not held
the administrative review for reasons not entirely made clear by the record. Moreover,
in Spargo v. New York State Comm'n on Judicial Conduct, 351 F.3d 65, 79 (2d Cir. 2003), this
Court held that the "ability to raise constitutional claims in subsequent 'state-court
judicial review of [an underlying] administrative proceeding' is sufficient to provide
plaintiffs with a meaningful opportunity to seek effective relief through state
proceedings and bar federal courts from taking jurisdiction over the same claims while
the state proceeding is pending" (emphasis added). Thus, the state process provides
sufficient opportunity to raise constitutional claims.
Plaintiffs also argue that the district court should have applied the "bad
faith" exception to Younger, and exercised jurisdiction because they have shown "bad
faith" and "harassment" by defendants. Diamond "D," 282 F.3d at 198 (quoting Younger,
401 U.S. at 54). The district court correctly held that the actions alleged in the complaint
are not sufficient to sustain a finding of bad faith. To show bad faith, a plaintiff must
show that "the state proceeding was initiated with and is animated by a retaliatory,
harassing, or other illegitimate motive" and "ha[s] no reasonable expectation of
obtaining a favorable outcome." Diamond "D," 282 F.3d at 199. A state proceeding that
"is legitimate in its purposes, but unconstitutional in its execution -- even when the
violations of constitutional rights are egregious -- will not warrant the application of the

A7

bad faith exception." Id. (internal citation omitted). Here, the case was initially brought
to the attention of a mental health counselor by the accusations of Lowell's daughter,
not by the reporting of a DCF employee. Hence, the suggestion that the state
proceeding was therefore initiated with a harassing or retaliatory motive, or that the
state had no reasonable expectation of a favorable outcome, is not plausible, and
plaintiffs have not met their burden of showing that the bad faith exception should
apply.
We have reviewed plaintiﬀs' remaining arguments on appeal and
conclude they are without merit. Accordingly, we AFFIRM the order of the district
court denying plaintiﬀs' claims for a temporary restraining order and preliminary
injunctive relief.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

A8

A9

A10

A11

A12

A13

A14

A15

A16

§ 4912. Definitions, VT ST T. 33 § 4912

A17

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4912

§ 4912. Definitions
Currentness
As used in this subchapter:
(1) “Abused or neglected child” means a child whose physical health, psychological growth and development, or welfare is
harmed or is at substantial risk of harm by the acts or omissions of his or her parent or other person responsible for the child's
welfare. An “abused or neglected child” also means a child who is sexually abused or at substantial risk of sexual abuse by
any person and a child who has died as a result of abuse or neglect.
(2) “Assessment” means a response to a report of child abuse or neglect that focuses on the identification of the strengths
and support needs of the child and the family and any services they may require to improve or restore their well-being and
to reduce the risk of future harm. The child and family assessment does not result in a formal determination as to whether
the reported abuse or neglect has occurred.
(3) “Child” means an individual under the age of majority.
(4) “Child Protection Registry” means a record of all investigations that have resulted in a substantiated report on or after
January 1, 1992.
(5) “Emotional maltreatment” means a pattern of malicious behavior which results in impaired psychological growth and
development.
(6) “Harm” can occur by:
(A) Physical injury or emotional maltreatment.
(B) Failure to supply the child with adequate food, clothing, shelter, or health care. As used in this subchapter,
“adequate health care” includes any medical or nonmedical remedial health care permitted or authorized under State law.
Notwithstanding that a child might be found to be without proper parental care under chapters 51 and 53 of this title, a
parent or other person responsible for a child's care legitimately practicing his or her religious beliefs who thereby does
not provide specified medical treatment for a child shall not be considered neglectful for that reason alone.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4912. Definitions, VT ST T. 33 § 4912

A18

(C) Abandonment of the child.
(7) “Investigation” means a response to a report of child abuse or neglect that begins with the systematic gathering of
information to determine whether the abuse or neglect has occurred and, if so, the appropriate response. An investigation
shall result in a formal determination as to whether the reported abuse or neglect has occurred.
(8) “Member of the clergy” means a priest, rabbi, clergy member, ordained or licensed minister, leader of any church or
religious body, accredited Christian Science practitioner, or person performing official duties on behalf of a church or religious
body that are recognized as the duties of a priest, rabbi, clergy, nun, brother, ordained or licensed minister, leader of any
church or religious body, or accredited Christian Science practitioner.
(9) “Multidisciplinary team” means a group of professionals, paraprofessionals, and other appropriate individuals impaneled
by the Commissioner under this chapter for the purpose of assisting in the identification and review of cases of child abuse
and neglect, coordinating treatment services for abused and neglected children and their families, and promoting child abuse
prevention.
(10) “Person responsible for a child's welfare” includes the child's parent, guardian, foster parent, any other adult residing in
the child's home who serves in a parental role, an employee of a public or private residential home, institution, or agency,
or other person responsible for the child's welfare while in a residential, educational, or child care setting, including any
staff person.
(11) “Physical injury” means death or permanent or temporary disfigurement or impairment of any bodily organ or function
by other than accidental means.
(12) “Redacted investigation file” means the intake report, the investigation activities summary, and case determination report
that are amended in accordance with confidentiality requirements set forth in section 4913 of this title.
(13) “Registry record” means an entry in the Child Protection Registry that consists of the name of an individual substantiated
for child abuse or neglect, the date of the finding, the nature of the finding, and at least one other personal identifier, other
than a name, listed in order to avoid the possibility of misidentification.
(14) “Risk of harm” means a significant danger that a child will suffer serious harm by other than accidental means, which
harm would be likely to cause physical injury, or sexual abuse, including as the result of:
(A) a single, egregious act that has caused the child to be at significant risk of serious physical injury;
(B) the production or preproduction of methamphetamines when a child is actually present;
(C) failing to provide supervision or care appropriate for the child's age or development and, as a result, the child is at
significant risk of serious physical injury;
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4912. Definitions, VT ST T. 33 § 4912

A19

(D) failing to provide supervision or care appropriate for the child's age or development due to use of illegal substances,
or misuse of prescription drugs or alcohol;
(E) failing to supervise appropriately a child in a situation in which drugs, alcohol, or drug paraphernalia are accessible
to the child; and
(F) a registered sex offender or person substantiated for sexually abusing a child residing with or spending unsupervised
time with a child.
(15) “Sexual abuse” consists of any act or acts by any person involving sexual molestation or exploitation of a child, including:
(A) incest;
(B) prostitution;
(C) rape;
(D) sodomy;
(E) lewd and lascivious conduct involving a child;
(F) aiding, abetting, counseling, hiring, or procuring of a child to perform or participate in any photograph, motion picture,
exhibition, show, representation, or other presentation which, in whole or in part, depicts sexual conduct, sexual excitement,
or sadomasochistic abuse involving a child;
(G) viewing, possessing, or transmitting child pornography, with the exclusion of the exchange of images between mutually
consenting minors, including the minor whose image is exchanged;
(H) human trafficking;
(I) sexual assault;
(J) voyeurism;
(K) luring a child; or
(L) obscenity.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 4912. Definitions, VT ST T. 33 § 4912

A20

(16) “Substantiated report” means that the Commissioner or the Commissioner's designee has determined after investigation
that a report is based upon accurate and reliable information that would lead a reasonable person to believe that the child
has been abused or neglected.
(17) “Serious physical injury” means, by other than accidental means:
(A) physical injury that creates any of the following:
(i) a substantial risk of death;
(ii) a substantial loss or impairment of the function of any bodily member or organ;
(iii) a substantial impairment of health; or
(iv) substantial disfigurement; or
(B) strangulation by intentionally impeding normal breathing or circulation of the blood by applying pressure on the throat
or neck or by blocking the nose or mouth of another person.
Credits
1981, Adj. Sess., No. 207, § 1; 1985, Adj. Sess., No. 211, §§ 1, 2; 1989, Adj. Sess., No. 295, §§ 1, 2; 1991, Adj. Sess., No. 141,
§ 1; 1995, Adj. Sess., No. 145, § 5; 2001, Adj. Sess., No. 135, § 15; 2003, No. 43, § 2; 2003, No. 66, § 136a; 2007, No. 77, §
1, eff. June 7, 2007; 2007, Adj. Sess., No. 168, § 2, eff. July 1, 2008; 2007, Adj. Sess., No. 172, § 18, eff. July 1, 2008; 2013,
Adj. Sess., No. 131, § 76, eff. May 20, 2014; 2015, No. 60, § 3, eff. July 1, 2015.

Notes of Decisions (22)
33 V.S.A. § 4912, VT ST T. 33 § 4912
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

§ 4915. Assessment and investigation, VT ST T. 33 § 4915

A21

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4915

§ 4915. Assessment and investigation
Currentness
(a) Upon receipt of a report of abuse or neglect, the Department shall promptly determine whether it constitutes an allegation
of child abuse or neglect as defined in section 4912 of this title. The Department shall respond to reports of alleged neglect or
abuse that occurred in Vermont and to out-of-state conduct when the child is a resident of or is present in Vermont.
(b) If the report is accepted as a valid allegation of abuse or neglect, the Department shall determine whether to conduct an
assessment as provided for in section 4915a of this title or to conduct an investigation as provided for in section 4915b of this
title. The Department shall begin either an assessment or an investigation within 72 hours after the receipt of a report made
pursuant to section 4914 of this title, provided that it has sufficient information to proceed. The Commissioner may waive the
72-hour requirement only when necessary to locate the child who is the subject of the allegation or to ensure the safety of the
child or social worker.
(c) The decision to conduct an assessment shall include consideration of the following factors:
(1) the nature of the conduct and the extent of the child's injury, if any;
(2) the accused person's prior history of child abuse or neglect, or lack thereof; and
(3) the accused person's willingness or lack thereof to accept responsibility for the conduct and cooperate in remediation.
(d) The Department shall conduct an investigation when an accepted report involves allegations indicating substantial child
endangerment. For purposes of this section, “substantial child endangerment” includes conduct by an adult involving or resulting
in sexual abuse, and conduct by a person responsible for a child's welfare involving or resulting in abandonment, child fatality,
malicious punishment, or abuse or neglect that causes serious physical injury. The Department may conduct an investigation
of any report.
(e) The Department shall begin an immediate investigation if, at any time during an assessment, it appears that an investigation
is appropriate.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4915. Assessment and investigation, VT ST T. 33 § 4915

A22

(f) The Department may collaborate with child protection, law enforcement, and other departments and agencies in Vermont
and other jurisdictions to evaluate risk to a child and to determine the service needs of the child and family. The Department
may enter into reciprocal agreements with other jurisdictions to further the purposes of this subchapter.
(g) The Department shall report to and receive assistance from appropriate law enforcement in the following circumstances:
(1) investigations of child sexual abuse by an alleged perpetrator 10 years of age or older;
(2) investigations of serious physical abuse or neglect requiring emergency medical care, resulting in death, or likely to result
in criminal charges;
(3) situations potentially dangerous to the child or Department worker; and
(4) an incident in which a child suffers:
(A) serious bodily injury as defined in 13 V.S.A. § 1021, by other than accidental means; and
(B) potential violations of:
(i) 13 V.S.A. § 2602 (lewd or lascivious conduct with child);
(ii) 13 V.S.A. chapter 60 (human trafficking);
(iii) 13 V.S.A. chapter 64 (sexual exploitation of children); and
(iv) 13 V.S.A. chapter 72 (sexual assault).
Credits
1981, Adj. Sess., No. 207, § 1; 1995, Adj. Sess., No. 178, § 300; 1999, Adj. Sess., No. 78, § 1; 2007, No. 77, § 1, eff. June 7,
2007; 2007, Adj. Sess., No. 168, § 5, eff. July 1, 2008; 2015, No. 60, § 17, eff. July 1, 2015.

Notes of Decisions (13)
33 V.S.A. § 4915, VT ST T. 33 § 4915
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4915b. Procedures for investigation, VT ST T. 33 § 4915b

A23

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4915b

§ 4915b. Procedures for investigation
Currentness
(a) An investigation, to the extent that it is reasonable under the facts and circumstances presented by the particular allegation
of child abuse, shall include all of the following:
(1) A visit to the child's place of residence or place of custody and to the location of the alleged abuse or neglect.
(2) An interview with or observation of the child reportedly having been abused or neglected. If the investigator elects to
interview the child, that interview may take place without the approval of the child's parents, guardian, or custodian, provided
that it takes place in the presence of a disinterested adult who may be, but shall not be limited to being, a teacher, a member
of the clergy, a child care provider regulated by the Department, or a nurse.
(3) Determination of the nature, extent, and cause of any abuse or neglect.
(4) Determination of the identity of the person alleged to be responsible for such abuse or neglect.
(5)(A) The identity, by name, of any other children living in the same home environment as the subject child. The investigator
shall consider the physical and emotional condition of those children and may interview them, unless the child is the person
who is alleged to be responsible for such abuse or neglect, in accordance with the provisions of subdivision (2) of this
subsection.
(B) The identity, by name, of any other children who may be at risk if the abuse was alleged to have been committed by
someone who is not a member of the subject child's household. The investigator shall consider the physical and emotional
condition of those children and may interview them, unless the child is the person who is alleged to be responsible for such
abuse or neglect, in accordance with the provisions of subdivision (2) of this subsection.
(6) A determination of the immediate and long-term risk to each child if that child remains in the existing home or other
environment.
(7) Consideration of the environment and the relationship of any children therein to the person alleged to be responsible for
the suspected abuse or neglect.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4915b. Procedures for investigation, VT ST T. 33 § 4915b

A24

(8) All other data deemed pertinent.
(b) For cases investigated and substantiated by the Department, the Commissioner shall, to the extent that it is reasonable,
provide assistance to the child and the child's family. For cases investigated but not substantiated by the Department, the
Commissioner may, to the extent that it is reasonable, provide assistance to the child and the child's family. Nothing contained
in this section or section 4915a of this title shall be deemed to create a private right of action.
(c) The Commissioner, designee, or any person required to report under section 4913 of this title or any other person performing
an investigation may take or cause to be taken photographs of trauma visible on a child who is the subject of a report.
The Commissioner or designee may seek consultation with a physician. If it is indicated appropriate by the physician, the
Commissioner or designee may cause the child who is subject of a report to undergo a radiological examination without the
consent of the child's parent or guardian.
(d) Services may be provided to the child's immediate family whether or not the child remains in the home.
(e) Repealed by 2015, No. 60, § 16, eff. July 1, 2015.
(f) The Department shall not substantiate cases in which neglect is caused solely by the lack of financial resources of the parent
or guardian.
Credits
2007, Adj. Sess., No. 168, § 7, eff. July 1, 2008; 2015, No. 60, § 16, eff. July 1, 2015.

Notes of Decisions (1)
33 V.S.A. § 4915b, VT ST T. 33 § 4915b
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4916. Child Protection Registry, VT ST T. 33 § 4916

A25

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4916

§ 4916. Child Protection Registry
Currentness
(a)(1) The Commissioner shall maintain a Child Protection Registry which shall contain a record of all investigations that have
resulted in a substantiated report on or after January 1, 1992. Except as provided in subdivision (2) of this subsection, prior
to placement of a substantiated report on the Registry, the Commissioner shall comply with the procedures set forth in section
4916a of this title.
(2) In cases involving sexual abuse or serious physical abuse of a child, the Commissioner in his or her sole judgment may
list a substantiated report on the Registry pending any administrative review after:
(A) reviewing the investigation file; and
(B) making written findings in consideration of:
(i) the nature and seriousness of the alleged behavior; and
(ii) the person's continuing access to children.
(3) A person alleged to have abused or neglected a child and whose name has been placed on the Registry in accordance
with subdivision (2) of this subsection shall be notified of the Registry entry, provided with the Commissioner's findings, and
advised of the right to seek an administrative review in accordance with section 4916a of this title.
(4) If the name of a person has been placed on the Registry in accordance with subdivision (2) of this subsection, it shall be
removed from the Registry if the substantiation is rejected after an administrative review.
(b) A Registry record means an entry in the Child Protection Registry that consists of the name of an individual substantiated
for child abuse or neglect, the date of the finding, the nature of the finding, and at least one other personal identifier, other than
a name, listed in order to avoid the possibility of misidentification.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4916. Child Protection Registry, VT ST T. 33 § 4916

A26

(c) The Commissioner shall adopt rules to permit use of the Registry records as authorized by this subchapter while preserving
confidentiality of the Registry and other Department records related to abuse and neglect.
(d) For all substantiated reports of child abuse or neglect made on or after the date the final rules are adopted, the Commissioner
shall create a Registry record that reflects a designated child protection level related to the risk of future harm to children. This
system of child protection levels shall be based upon an evaluation of the risk the person responsible for the abuse or neglect
poses to the safety of children. The risk evaluation shall include consideration of the following factors:
(1) the nature of the conduct and the extent of the child's injury, if any;
(2) the person's prior history of child abuse or neglect as either a victim or perpetrator;
(3) the person's response to the investigation and willingness to engage in recommended services; and
(4) the person's age and developmental maturity.
(e) The Commissioner shall develop rules for the implementation of a system of Child Protection Registry levels for
substantiated cases. The rules shall address:
(1) the length of time a person's name appears on the Registry;
(2) when and how names are expunged from the Registry;
(3) whether the person is a juvenile or an adult;
(4) whether the person was charged with or convicted of a criminal offense arising out of the incident of abuse or neglect; and
(5) whether a Family Division of the Superior Court has made any findings against the person.
(f) Deleted by 2007, Adj. Sess. No. 168, § 8, eff. July 1, 2008.
Credits
1981, Adj. Sess., No. 207, § 1; 1989, Adj. Sess., No. 295, § 5; 1991, Adj. Sess., No. 159, § 3; 2007, No. 77, § 1, eff. June 7,
2007, and Sept. 1, 2007; 2007, Adj. Sess., No. 168, § 8, eff. July 1, 2008; 2007, Adj. Sess., No. 172, § 20, eff. July 1, 2008;
2009, Adj. Sess., No. 154, § 238(c)(10), eff. July 1, 2010.

Notes of Decisions (32)

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4916. Child Protection Registry, VT ST T. 33 § 4916

A27

33 V.S.A. § 4916, VT ST T. 33 § 4916
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 4916a. Challenging placement on the Registry, VT ST T. 33 § 4916a

A28

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4916a

§ 4916a. Challenging placement on the Registry
Currentness
(a) If an investigation conducted in accordance with section 4915b of this title results in a determination that a report of child
abuse or neglect should be substantiated, the Department shall notify the person alleged to have abused or neglected a child
of the following:
(1) the nature of the substantiation decision, and that the Department intends to enter the record of the substantiation into
the Registry;
(2) who has access to Registry information and under what circumstances;
(3) the implications of having one's name placed on the Registry as it applies to employment, licensure, and registration;
(4) the right to request a review of the substantiation determination by an administrative reviewer, the time in which the
request for review shall be made, and the consequences of not seeking a review; and
(5) the right to receive a copy of the Commissioner's written findings made in accordance with subdivision 4916(a)(2) of
this title if applicable.
(b) Under this section, notice by the Department to a person alleged to have abused or neglected a child shall be by first class
mail sent to the person's last known address.
(c)(1) A person alleged to have abused or neglected a child may seek an administrative review of the Department's intention to
place the person's name on the Registry by notifying the Department within 14 days of the date the Department mailed notice
of the right to review in accordance with subsections (a) and (b) of this section. The Commissioner may grant an extension past
the 14-day period for good cause, not to exceed 28 days after the Department has mailed notice of the right to review.
(2) The administrative review may be stayed upon request of the person alleged to have committed abuse or neglect if there is
a related case pending in the Criminal or Family Division of the Superior Court which arose out of the same incident of abuse
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4916a. Challenging placement on the Registry, VT ST T. 33 § 4916a

A29

or neglect for which the person was substantiated. During the period the review is stayed, the person's name shall be placed
on the Registry. Upon resolution of the Superior Court criminal or family case, the person may exercise his or her right to
review under this section by notifying the Department in writing within 30 days after the related court case, including any
appeals, has been fully adjudicated. If the person fails to notify the Department within 30 days, the Department's decision
shall become final and no further review under this subsection is required.
(d) The Department shall hold an administrative review conference within 35 days of receipt of the request for review. At least
10 days prior to the administrative review conference, the Department shall provide to the person requesting review a copy of
the redacted investigation file, notice of time and place of the conference, and conference procedures, including information
that may be submitted and mechanisms for providing information. There shall be no subpoena power to compel witnesses to
attend a Registry review conference. The Department shall also provide to the person those redacted investigation files that
relate to prior investigations that the Department has relied upon to make its substantiation determination in the case in which
a review has been requested.
(e) At the administrative review conference, the person who requested the review shall be provided with the opportunity to
present documentary evidence or other information that supports his or her position and provides information to the reviewer
in making the most accurate decision regarding the allegation. The Department shall have the burden of proving that it has
accurately and reliably concluded that a reasonable person would believe that the child has been abused or neglected by that
person. Upon the person's request, the conference may be held by teleconference.
(f) The Department shall establish an administrative case review unit within the Department and contract for the services of
administrative reviewers. An administrative reviewer shall be a neutral and independent arbiter who has no prior involvement
in the original investigation of the allegation.
(g) Within seven days of the conference, the administrative reviewer shall:
(1) reject the Department's substantiation determination;
(2) accept the Department's substantiation; or
(3) place the substantiation determination on hold and direct the Department to further investigate the case based upon
recommendations of the reviewer.
(h) If the administrative reviewer accepts the Department's substantiation determination, a Registry record shall be made
immediately. If the reviewer rejects the Department's substantiation determination, no Registry record shall be made.
(i) Within seven days of the decision to reject or accept or to place the substantiation on hold in accordance with subsection
(g) of this section, the administrative reviewer shall provide notice to the person of his or her decision. If the administrative
reviewer accepts the Department's substantiation, the notice shall advise the person of the right to appeal the administrative
reviewer's decision to the human services board in accordance with section 4916b of this title.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4916a. Challenging placement on the Registry, VT ST T. 33 § 4916a

A30

(j) Persons whose names were placed on the Registry on or after January 1, 1992 but prior to September 1, 2007 shall be entitled
to an opportunity to seek an administrative review to challenge the substantiation.
(k) If no administrative review is requested, the Department's decision in the case shall be final, and the person shall have no
further right of review under this section. The Commissioner may grant a waiver and permit such a review upon good cause
shown. Good cause may include an acquittal or dismissal of a criminal charge arising from the incident of abuse or neglect.
(l) In exceptional circumstances, the Commissioner, in his or her sole and nondelegable discretion, may reconsider any decision
made by a reviewer. A Commissioner's decision that creates a Registry record may be appealed to the Human Services Board
in accordance with section 4916b of this title.
Credits
2007, No. 77, § 1, eff. Sept. 1, 2007; 2007, Adj. Sess., No. 168, § 9, eff. Sept. 1, 2008; 2009, Adj. Sess., No. 154, § 221, eff.
July 1, 2010; 2015, Adj. Sess., No. 92, § 1, eff. May 10, 2016.

Notes of Decisions (7)
33 V.S.A. § 4916a, VT ST T. 33 § 4916a
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

§ 4916b. Human Services Board hearing, VT ST T. 33 § 4916b

A31

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4916b

§ 4916b. Human Services Board hearing
Effective: July 1, 2018
Currentness
(a) Within 30 days after the date on which the administrative reviewer mailed notice of placement of a report on the Registry,
the person who is the subject of the substantiation may apply in writing to the Human Services Board for relief. The Board shall
hold a fair hearing pursuant to 3 V.S.A. § 3091. When the Department receives notice of the appeal, it shall make note in the
Registry record that the substantiation has been appealed to the Board.
(b)(1) The Board shall hold a hearing within 60 days after the receipt of the request for a hearing and shall issue a decision
within 30 days after the hearing.
(2) Priority shall be given to appeals in which there are immediate employment consequences for the person appealing the
decision.
(3)(A) Article VIII of the Vermont Rules of Evidence (Hearsay) shall not apply to any hearing held pursuant to this subchapter
with respect to statements made by a child 12 years of age or under who is alleged to have been abused or neglected and the
child shall not be required to testify or give evidence at any hearing held under this subchapter. Evidence shall be admissible
if the time, content, and circumstances of the statements provide substantial indicia of trustworthiness.
(B) Article VIII of the Vermont Rules of Evidence (Hearsay) shall not apply to any hearing held pursuant to this subchapter
with respect to statements made by a child who is at least 13 years of age and under 16 years of age who is alleged to
have been abused or neglected and the child shall not be required to testify or give evidence at any hearing held under this
subchapter in either of the following circumstances:
(i) The hearing officer determines, based on a preponderance of the evidence, that requiring the child to testify will
present a substantial risk of trauma to the child. Evidence of trauma need not be offered by an expert and may be offered
by any adult with an ongoing significant relationship with the child. Evidence shall be admissible if the time, content,
and circumstances of the statements provide substantial indicia of trustworthiness.
(ii) The hearing officer determines that the child is physically unavailable to testify or the Department has made diligent
efforts to locate the child and was unsuccessful. Evidence shall be admissible if the time, content, and circumstances of
the statements provide substantial indicia of trustworthiness.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4916b. Human Services Board hearing, VT ST T. 33 § 4916b

A32

(4) Convictions and adjudications that arose out of the same incident of abuse or neglect for which the person was
substantiated, whether by verdict, by judgment, or by a plea of any type, including a plea resulting in a deferred sentence,
shall be competent evidence in a hearing held under this subchapter.
(c) A hearing may be stayed upon request of the petitioner if there is a related case pending in the Criminal or Family Division
of the Superior Court that arose out of the same incident of abuse or neglect for which the person was substantiated.
(d) If no review by the Board is requested, the Department's decision in the case shall be final, and the person shall have no
further right for review under this section. The Board may grant a waiver and permit such a review upon good cause shown.
Credits
2007, No. 77, § 1, eff. Sept. 1, 2007; 2007, Adj. Sess., No. 168, § 10, eff. July 1, 2008; 2009, No. 1, § 29, eff. July 1, 2009;
2009, Adj. Sess., No. 154, § 222, eff. July 1, 2010; 2017, Adj. Sess., No. 147, § 1, eff. July 1, 2018.

Notes of Decisions (4)
33 V.S.A. § 4916b, VT ST T. 33 § 4916b
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4916c. Petition for expungement from the Registry, VT ST T. 33 § 4916c

A33

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4916c

§ 4916c. Petition for expungement from the Registry
Currentness
(a)(1) Except as provided in this subdivision, a person whose name has been placed on the Registry prior to July 1, 2009 and
has been listed on the Registry for at least three years may file a written request with the Commissioner, seeking a review for
the purpose of expunging an individual Registry record. A person whose name has been placed on the Registry on or after July
1, 2009 and has been listed on the Registry for at least seven years may file a written request with the Commissioner seeking a
review for the purpose of expunging an individual Registry record. The Commissioner shall grant a review upon request.
(2) A person who is required to register as a sex offender on the State's Sex Offender Registry shall not be eligible to petition
for expungement of his or her Registry record until the person is no longer subject to Sex Offender Registry requirements.
(b)(1) The person shall have the burden of proving that a reasonable person would believe that he or she no longer presents a
risk to the safety or well-being of children.
(2) The Commissioner shall consider the following factors in making his or her determination:
(A) the nature of the substantiation that resulted in the person's name being placed on the Registry;
(B) the number of substantiations;
(C) the amount of time that has elapsed since the substantiation;
(D) the circumstances of the substantiation that would indicate whether a similar incident would be likely to occur;
(E) any activities that would reflect upon the person's changed behavior or circumstances, such as therapy, employment,
or education;
(F) references that attest to the person's good moral character; and

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4916c. Petition for expungement from the Registry, VT ST T. 33 § 4916c

A34

(G) any other information that the Commissioner deems relevant.
(3) The Commissioner may deny a petition for expungement based solely on subdivision (2)(A) or (2)(B) of this subsection.
(c) At the review, the person who requested the review shall be provided with the opportunity to present any evidence or other
information, including witnesses, that supports his or her request for expungement. Upon the person's request, the review may
be held by teleconference.
(d) A person may seek a review under this section no more than once every 36 months.
(e) Within 30 days of the date on which the Commissioner mailed notice of the decision pursuant to this section, a person may
appeal the decision to the Human Services Board. The person shall be prohibited from challenging his or her substantiation at
such hearing, and the sole issue before the Board shall be whether the Commissioner abused his or her discretion in denial of
the petition for expungement. The hearing shall be on the record below, and determinations of credibility of witnesses made
by the Commissioner shall be given deference by the Board.
(f) The Department shall take steps to provide reasonable notice to persons on the Registry of their right to seek an expungement
under this section. Actual notice is not required. Reasonable steps may include activities such as the production of an informative
fact sheet about the expungement process, posting of such information on the Department website, and other approaches
typically taken by the Department to inform the public about the Department's activities and policies. The Department shall
send notice of the expungement process to any person listed on the Registry for whom a Registry check has been requested.
Credits
2007, No. 77, § 1, eff. June 7, 2007; 2007, Adj. Sess., No. 168, § 11, eff. July 1, 2008; 2015, Adj. Sess., No. 92, § 2, eff.
May 10, 2016.

Notes of Decisions (2)
33 V.S.A. § 4916c, VT ST T. 33 § 4916c
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

§ 4916d. Automatic expungement of Registry records, VT ST T. 33 § 4916d

A35

KeyCite Yellow Flag - Negative Treatment
Proposed Legislation

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4916d

§ 4916d. Automatic expungement of Registry records
Currentness
Registry entries concerning a person who was substantiated for behavior occurring before the person reached 10 years of age
shall be expunged when the person reaches the age of 18, provided that the person has had no additional substantiated Registry
entries. A person substantiated for behavior occurring before the person reached 18 years of age and whose name has been
listed on the Registry for at least three years may file a written request with the Commissioner seeking a review for the purpose
of expunging an individual Registry record in accordance with section 4916c of this title.
Credits
2007, No. 77, § 1, eff. June 7, 2007; 2007, Adj. Sess., No. 168, § 12, eff. July 1, 2008.
33 V.S.A. § 4916d, VT ST T. 33 § 4916d
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4919. Disclosure of Registry records, VT ST T. 33 § 4919

A36

West's Vermont Statutes Annotated
Title Thirty-Three. Human Services
Part 3. Programs and Services for Children and Youth
Chapter 49. Child Welfare Services (Refs & Annos)
Subchapter 2. Reporting Abuse of Children
33 V.S.A. § 4919

§ 4919. Disclosure of Registry records
Currentness
(a) The Commissioner may disclose a Registry record only as follows:
(1) To the State's Attorney or the Attorney General.
(2) To the owner or operator of a facility regulated by the Department for the purpose of informing the owner or operator
that employment of a specific individual may result in loss of license, registration, certification, or authorization as set forth
in section 152 of this title.
(3) To an employer if such information is used to determine whether to hire or retain a specific individual providing care,
custody, treatment, transportation, or supervision of children or vulnerable adults. The employer may submit a request
concerning a current employee, volunteer, grantee, or contractor or an individual to whom the employer has given a
conditional offer of a contract, volunteer position, or employment. The request shall be accompanied by a release signed
by the current or prospective employee, volunteer, grantee, or contractor. If that individual has a record of a substantiated
report, the Commissioner shall provide the Registry record to the employer. The employer shall not disclose the information
contained in the Registry report.
(4) To the Commissioners of Disabilities, Aging, and Independent Living and of Mental Health or their designees for purposes
related to the licensing or registration of facilities regulated by those Departments.
(5) To the Commissioners of Health, of Disabilities, Aging, and Independent Living and of Mental Health or their designees
for purposes related to oversight and monitoring of persons who are served by or compensated with funds provided by those
Departments, including persons to whom a conditional offer of employment has been made.
(6) Upon request or when relevant to other states' adult protective services offices.
(7) Upon request or when relevant to other states' child protection agencies.
(8) To the person substantiated for child abuse and neglect who is the subject of the record.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

§ 4919. Disclosure of Registry records, VT ST T. 33 § 4919

A37

(9) To the Commissioner of Corrections in accordance with the provisions of 28 V.S.A. § 204a(b)(3).
(10) To the Board of Medical Practice for the purpose of evaluating an applicant, licensee, or holder of certification pursuant
to 26 V.S.A. § 1353.
(b) An employer providing transportation services to children or vulnerable adults may disclose Registry records obtained
pursuant to subdivision (a)(3) of this section to the Agency of Human Services or its designee for the sole purpose of auditing
the records to ensure compliance with this subchapter. An employer shall provide such records at the request of the Agency or
its designee. Only Registry records regarding individuals who provide direct transportation services or otherwise have direct
contact with children or vulnerable adults may be disclosed.
(c) Volunteers shall be considered employees for purposes of this section.
(d) Disclosure of Registry records or information or other records used or obtained in the course of providing services to prevent
child abuse or neglect or to treat abused or neglected children and their families by one member of a multidisciplinary team to
another member of that team shall not subject either member of the multidisciplinary team, individually, or the team as a whole,
to any civil or criminal liability notwithstanding any other provision of law.
(e) “Employer,” as used in this section, means a person or organization who employs or contracts with one or more individuals
to care for or provide transportation services to children or vulnerable adults, on either a paid or volunteer basis.
(f) In no event shall Registry records be made available for employment purposes other than as set forth in this subsection, or
for credit purposes. Any person who violates this subsection shall be fined not more than $500.00.
(g) Nothing in this subsection shall limit the Department's right to use and disclose information from its records as provided
in section 4921 of this chapter.
Credits
1981, Adj. Sess., No. 207, § 1; 1983, Adj. Sess., No. 169, § 2; 1991, Adj. Sess., No. 159, § 4; 1993, No. 100, § 7; 2001, Adj.
Sess., No. 135, § 16; 2003, No. 66, § 136b; 2005, Adj. Sess., No. 174, § 121; 2007, No. 77, § 1, eff. June 7, 2007; 2007, Adj.
Sess., No. 168, § 15, eff. July 1, 2008; 2009, No. 1, § 37, eff. July 1, 2009; 2011, No. 61, § 7, eff. June 2, 2011.
33 V.S.A. § 4919, VT ST T. 33 § 4919
The statutes are current through Acts 1 through 9, M-1 of the Regular Session of the 2021-2022 Vermont General Assembly
(2021).
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

